Audit of USAID/South Africa’s Fiscal Year 2001
      Financial Operations and Controls


           Report No. 4-674-02-001-F
              February 28, 2002




         PRETORIA, SOUTH AFRICA
U.S. AGENCY FOR
INTERNATIONAL
DEVELOPMENT

RIG/Pretoria


February 28, 2002

MEMORANDUM
FOR:              Director, USAID/South Africa, Dirk W. Dijkerman

FROM:             Acting Regional Inspector General/Pretoria, Nancy J. Lawton

SUBJECT:          Audit of USAID/South Africa’s Fiscal Year 2001 Financial
                  Operations and Controls, Audit Report No. 4-674-02-001-F

This memorandum is our report on the subject audit. We received your
comments to our draft report and included those comments as Appendix II to
this report.

This report makes one recommendation for your action. Based on information
provided by the Mission documenting corrective actions taken, the
recommendation is closed upon issuance of this report.

I appreciate the cooperation and courtesy extended to my staff during the
audit.




                                                                                1
Table of
Contents   Summary of Results                                 3

           Background                                         3

           Audit Objective                                    4

           Audit Finding

                  USAID/South Africa Needs to Monitor
                  Outstanding Advances                        4

           Management Comments and Our Evaluation             6

           Appendix I - Scope and Methodology                  7

           Appendix II – Management Comments                  10

           Appendix III – Detailed Results of Audit Testing   11




                                                                   2
Summary of   Our audit of USAID/South Africa’s fiscal year 2001 financial operations and
Results      controls focused on determining whether financial statement account balances
             related to USAID/South Africa's costs during fiscal year 2001 were free from
             material misstatements.

             Our audit identified that the financial statement account balances, related to
             the USAID/South Africa’s costs during fiscal year 2001, were free from
             material misstatement for the Mission processes reviewed. However, the
             audit identified internal control weaknesses in USAID/South Africa’s process
             of monitoring outstanding advances (see page 4). Specifically, USAID/South
             Africa did not monitor, or follow up on, outstanding advances to ensure they
             were liquidated in a timely manner. USAID/South Africa did not follow
             established procedures for monitoring outstanding advances because it gave
             priority to clearing outstanding 1221 reconciling items. However, the longer
             advances remain outstanding the more difficult they are to collect and the
             likelihood increases that outstanding advances will not be collected.

             We recommended that USAID/South Africa develop a plan to collect
             outstanding advances and initiate write-off action for those advances
             determined to be uncollectable. USAID/South Africa concurred with this
             recommendation and took the necessary corrective actions. As a result, the
             recommendation is closed upon report issuance (see page 6).



Background   The Government Management Reform Act of 1994 requires agencies to
             complete audited financial statements each year covering all accounts and
             associated activities of the agencies. These financial statements are intended
             to not only report the financial position and results of operations of the
             agency, but also to provide further information allowing Congress and the
             public to assess management’s performance and stewardship of agency
             resources. As a result of this legislation, U.S. Agency for International
             Development’s (USAID) management is required to compile USAID-wide
             financial statements and supplemental information. For FY 2001, these
             financial statements are to be audited and submitted to the Office of
             Management and Budget (OMB) no later than March 1, 2002.

             This review is part of an USAID-wide effort, led by the OIG’s Office of
             Financial Audits in Washington, D.C., to audit USAID’s FY 2001 financial
             statements prior to their submission to OMB. USAID/South Africa uses the
             Mission Accounting and Control System (MACS) for accounting and
             controlling budget transactions. As of FY 2001, MACS data was consolidated
             into USAID/Washington’s system using the MACS Auxiliary Ledger. This
             Ledger is a detailed transaction-level database maintained and used by
             USAID/Washington, Office of Management/Financial Management division


                                                                                              3
                  to journalize and post mission transaction balances to the USAID general
                  ledger and then to the financial statements.



Audit Objective   As part of an USAID-wide review, RIG/Pretoria performed this audit to
                  answer the following question:

                         Are financial statement account balances related to USAID/South
                         Africa's costs during fiscal year 2001 free from material
                         misstatements?

                  Appendix I provides a complete discussion of the scope and methodology for
                  this audit.


Audit Finding     Are financial statement account balances related to USAID/South
                  Africa's costs during fiscal year 2001 free from material misstatements?

                  Financial statement account balances, related to USAID/South Africa’s costs
                  during fiscal year 2001, were free from material misstatement for the Mission
                  processes reviewed. However, the audit identified internal control
                  weaknesses in USAID/South Africa’s process of monitoring outstanding
                  advances.

                  We reviewed financial data generated in nine of the Mission processes. These
                  processes included: accrued expenditures, operating expense and project
                  disbursements, data calls, SF-1221 Treasury Fund Balance reconciliation,
                  budgetary balances, foreign currency trust fund activity, closing procedures,
                  exception reporting, and advances. The Mission’s systems were adequate for
                  all processes except advances. The eight processes found to be operating
                  effectively are discussed in Appendix III, page 11. Problems with advances
                  are discussed below.

                  USAID/South Africa Needs to
                  Monitor Outstanding Advances

                  The ADS Chapter on Program Funded Advances, Section E636.5.3b,
                  Excessive Advances/Periodic Review of Requirements states, in part, that the
                  mission controller must ensure that outstanding advances for contractors and
                  recipients are periodically reviewed (at least quarterly) so that funds advanced
                  are not in excess of immediate disbursement needs. For periodic advances
                  issued by the U. S. Treasury, immediate disbursing needs is defined as 30
                  calendar days from the date the advance is received until expended. This
                  means that the recipient has 30 days to expend the advance. The Mission



                                                                                                 4
requests the recipient to submit vouchers liquidating the advance within 45
days of the advance.

USAID/South Africa did not monitor or follow-up on outstanding advances to
ensure they were liquidated in a timely manner. This occurred because
USAID/South Africa concentrated its efforts in clearing 1221 reconciling
items, which was a higher priority. The Mission planned to address
outstanding advances at a later date.

                               USAID/South Africa’s Advances
                                  as of September 30, 2001
                                             Total               Outstanding          Outstanding
             Description                     Advances for        120 Days             More Than
                                             FY2001              or Less              120 Days

 Total Amount of Advances                       $5,011,824           $4,179,355               $832,469

 Number of Advances                                      416                  165                    251
 Percent of Total
 Number of Advances                                   100%                   40%                   60%
Note: USAID/Angola’s outstanding advances are included as part of the totals because USAID/South Africa
is the accounting station.


As shown in the table above, 251 advances—totaling more than $832,000—
were outstanding for more than 120 days. During our fieldwork, the Mission
took action to determine if the oldest advances were collectable and issued
bills for collection for ten advances that were outstanding for more than 360
days. These advances had been given to the recipients as early as August 1993
and, in one case, the date of the advance was unknown. As a result, at least a
portion of these long outstanding advances may no longer be collectable.

Monitoring advances ensures good financial and program management and
provides effective controls over funds. To ensure that advances are
reasonable and liquidated in a timely manner, the Mission must adhere to
established procedures in ADS 636. A large number (both in number and
dollar amount) of the Mission’s advances remained outstanding at September
30, 2001. To ensure that the Mission addresses outstanding advances, we are
making the following recommendation:

          Recommendation No. 1: We recommend that USAID/South
          Africa develop a plan to collect outstanding advances and initiate
          write-off action for those advances determined to be uncollectable.




                                                                                                           5
Management
                 USAID/South Africa concurred with the recommendation to develop a plan to
Comments and     collect outstanding advances and initiate write-off action for those advances
Our Evaluation   determined to be uncollectable.

                 In response to the recommendation, USAID/South Africa officials stated that
                 they had developed the plan. The Controller’s Office also provided copies of
                 recently issued bills for collection that initiate write-off procedures.

                 Based on our review of USAID/South Africa’s plan and additional documents
                 provided by the Controller’s Office, final action has been taken as of the date of
                 final report issuance.




                                                                                                      6
                                                                                   Appendix I



Scope and
              Scope
Methodology
              RIG/Pretoria conducted this audit as part of an USAID-wide audit led by the
              OIG Office of Financial Audits in Washington. The audit was conducted in
              accordance with generally accepted government auditing standards. In
              auditing these financial statements, the OIG performed a review of USAID’s
              financial controls which included testing a statistical sample of transactions, to
              determine if financial statement account balances related to the mission costs
              during fiscal year 2001 were free from material misstatement.

              This review was performed both at USAID/Washington and at ten randomly
              selected overseas missions including USAID/South Africa. This report deals
              solely with the results of our audit at USAID/South Africa. Fieldwork was
              conducted at the USAID/South Africa in Pretoria, South Africa from October
              30 to December 14, 2001.

              The OIG used a two-phase approach in auditing these financial statements.
              First, the internal control phase focused on gaining an understanding of the
              mission’s internal control structure and assessing the control risk. The results
              were used to determine the nature, timing and extent of testing in the second
              phase—substantive testing. This phase focused on testing the year-end
              financial data reported by the Mission Accounting and Control System
              (MACS) for accuracy, completeness, and reliability.

              Material deficiencies were identified during the internal control phase of this
              audit and the control risk was assessed as high. As a result, detailed testing was
              performed during the substantive-testing phase. Our materiality threshold was
              set at 5 percent.

              The audit focused on reviewing financial data generated under the following
              mission processes:

                      1)   Accrued Expenditures
                      2)   Advances
                      3)   Disbursements
                      4)   Data Calls
                      5)   SF-1221 Treasury Fund Balance Reconciliation
                      6)   Budgetary Balances
                      7)   Foreign Currency Trust Fund Activity
                      8)   Closing Procedures
                      9)    Exception Reporting




                                                                                                   7
In auditing USAID/South Africa’s accounting processes, our sample items
were judgmentally or statistically selected, as identified below:

Accrued Expenditures. During the last quarter of FY 2001, USAID/South
Africa processed 199 project accruals with a total value of approximately $31
million. We statistically selected and tested 73 project accruals, or 37 percent,
which represented approximately $26 million, or 84 percent, of the total value
of transactions.

Advances. During FY 2001, USAID/South Africa processed 559 project and
operating expense advance transactions with a total value of approximately $5
million. We statistically selected and tested 91 transactions, or 16 percent, which
represented approximately $4.5 million, or 90 percent, of the total value of the
transactions. We also determined the amount and percentage of outstanding
advances over 120 days.

Disbursements. Our tests covered project and operating expense disbursements.

Project Vouchers:
During FY 2001, USAID/South Africa processed approximately 7,036 project
disbursement transactions totaling $89 million. We statistically selected and
tested 113 transactions, or 1.6%, which represented approximately $29
million, or 33 percent.

Operating Expense Vouchers:
During FY 2001, USAID/South Africa processed approximately 11,020
operating expense disbursement transactions totaling $7 million. We
statistically selected and tested 114 operating expense transactions, or 1
percent, which represented $1.5 million, or 20 percent.

Data Calls. We judgmentally selected sample items from the Mission data calls
for each of the costs and verified the accuracy of relevant information with the
Mission’s underlying source documents.

SF-1221 Reconciliation Process. We tested USAID/South Africa’s process of
reconciling the SF-1221 report to its records by reviewing the monthly
reconciliations for three appropriations: 72X1021, 720/11037 and 72X1037 for
the fourth quarter of FY 2001. We also obtained the total number and value of
all outstanding reconciling items as of September 30, 2001.

Budgetary Balances. We judgmentally selected 30 sample items to test for the
validity of the obligations.




                                                                                   8
Foreign Currency Trust Fund Activity
No testing was done of this process because USAID/South Africa does not
have any foreign currency trust funds and no such activity has been reported
to the USAID/Washington, Office of Management/Financial Management.

Closing Procedures.
We reviewed the adequacy of the Mission’s implementation of the fiscal year
closing procedures distributed by USAID Office of Management/Financial
Management.

Exception Reporting
We did not perform testing in this area. USAID/South Africa did not report
any exceptions on the validation exception report as of September 30, 2001.

Methodology

To accomplish the audit objective, we conducted interviews with officials at
USAID/South Africa, principally in the Controller’s Office, to gain an
understanding of USAID/South Africa’s existing procedures and controls
covering the processes tested.

We statistically selected detailed transaction data from the MACS Auxiliary
Ledger and verified the accuracy of this information with source
documentation and detailed accounting records maintained by the Mission.
We verified whether the data met the six financial statement assertions: (1)
existence and occurrence, (2) completeness, (3) cutoff, (4) rights and
obligations, (5) valuation and allocation and (6) presentation and disclosure.
To gather audit evidence, our audit procedures involved recalculation,
physical observation, confirmation, verbal inquiry, examination of documents,
vouching, tracing and sampling. We did not assess the overall reliability of
the Mission Accounting and Control System.

The audit also included a review of the procedures and controls in place at the
time of our fieldwork.




                                                                               9
                                                                                                        Appendix II


Management
Comments
                                                                           UNITED STATES GOVERNTMENT
                                                                                     MEMORANDUM




 DATE             :   February 25, 2002

 TO           :       Nancy Lawton, Acting Regional Inspector General

 FROM         :       Dirk Dijkerman, Mission Director

 SUBJECT :            Response to Audit of USAID/SA FY 2001 Fin. Ops. and Controls


We concur with the recommendation that “USAID/South Africa develop a plan to collect outstanding advances and
initiate write-off action for those advances determined to be uncollectable”. We have already developed the plan
and have initiated the action required by the plan.

USAID/South Africa plan is as follows:
• Voucher Examiner Kenneth Briggs is assigned the duties of carrying out the plan.
• Outstanding advances for USAID personnel are to be liquidated after first contacting the employees to get them to
   submit vouchers. If the voucher is not enough to cover the full amount of the advance, the balance is to be paid back
   via cash in order to fully liquidate the advance.
• Outstanding advances for Projects of current Grantees are to be liquidated by first contacting the grantee and getting
   them to submit liquidating vouchers. No further advances are to be issued until such time as advances older than 90
   days have been fully liquidated.
• For all remaining advances that have been identified as uncollectable, Bills for Collection will be issued to
   commence the procedure which will enable us to write off these advances as uncollectable.
• The Self-Help advances, which constitute the majority of the oldest advances will be addressed after the others.
Progress to date:
                              Sept '01          Feb '02       Decrease         % Decrease

Total Advances                $5,011,824        $4,066,118    $945,706         18.8
Current-120 days              $4,179,355        $3,704,673    $474,682         11.4
121- over 360 days            $832,469          $361,445      $471,024         56.6

Total No.of Advances          416               435
Current - 120                 165               197
121 - over 360                251               238

While the number of old advances has not been decreased significantly, the outstanding advance amount outstanding for
the old items has been reduced significantly. The vast majority of the remaining items and balance pertains to Self-Help
Program advances, many of which were issued in the 1994 to 1996 time period. Work is now beginning on clearing
these advances, most of which, it is anticipated, will be eventually written off.

Drafted by:       Eric Schaeffer, Acting Controller




                                                                                                                     10
                                                                                  Appendix III


Detailed Results
of Audit Testing
                   Accrued Expenditures.
                   The sampled accrual amounts appeared to be generally based on reasonable
                   estimates. However, errors made by the accountants and project officers in
                   estimating and calculating the accruals resulted in an immaterial under-accrual
                   of approximately $581,000 for fourth quarter fiscal year 2001.

                   Advances.
                   • Results are reported in the body of the report (page 4).

                   Disbursements.
                   • We determined that disbursements for project and operating expenses were
                      supported by adequate documentation.
                   • The expenses were properly allocable to the overall operation of the Mission
                      and properly assigned to the appropriate accounting period.

                   Data Calls. (Non-Expended Property, Expendable Property, Schedule 9
                   Accounts Receivable, Net Cost Statement, Unfunded Accrued Annual Leave for
                   FSNs and PSCs, and Operating Leases)
                   • We reviewed the Mission Data Calls that were submitted to
                      USAID/Washington, Office of Management/Financial Management for the
                      reporting period ending September 30, 2001 to determine whether they were
                      accurately supported by adequate documentation and that the costs were
                      assigned to the proper accounting period.
                   • The sampled data call amounts were supported by adequate documentation
                      and the costs were assigned to the proper accounting period.

                   SF-1221 Reconciliation Process.
                   • The Mission made a tremendous effort in clearing outstanding reconciling
                       items since the internal control phase of this audit.
                   • As of September 30, 2001, the Mission had a total of 503 outstanding
                       reconciling items with an absolute value of $2.1 million. Of that amount,
                       $1.1 million were outstanding less than 60 days and due to be cleared in
                       October 2001.
                   • We found that the Mission’s process to reconcile its disbursement records
                       with the records of USAID/Washington, Treasury and the U.S.
                       Disbursing Offices was adequate.
                   • The Mission researched and resolved reconciling items in a timely
                       manner.




                                                                                                11
Budgetary Balances.
Based on our testing, all the sampled items met the criteria for a valid obligation.
Thus, we have reasonable assurance that USAID/South Africa’s obligations
were valid.

Foreign Currency Trust Fund Activity.
USAID/South Africa does not have any foreign currency trust funds and no such
activity was reported to USAID/Washington.

Closing Procedures.
USAID/South Africa’s year-end closing procedures were adequate.

Exception Reporting.
We did not perform testing in this area. USAID/South Africa did not report
any exceptions on the validation exception report as of September 30, 2001.




                                                                                  12
